OFFICE OF JUSTICE PROGRAMS GRANTS

            AWARDED TO

 THE CITY OF JACKSON, MISSISSIPPI





     U.S. Department of Justice

   Office of the Inspector General

            Audit Division



    Audit Report GR-40-10-006

            July 2010

                    OFFICE OF JUSTICE PROGRAMS
                        GRANTS AWARDED TO
                  THE CITY OF JACKSON, MISSISSIPPI

                            EXECUTIVE SUMMARY

       The Office of the Inspector General, Audit Division, has
completed an audit of Office of Justice Programs (OJP) grants,
including a 2009 Recovery and Reinvestment Act (Recovery Act) grant,
awarded to the City of Jackson, Mississippi. The purposes of the
grants were to: (1) implement programs to prevent juvenile
delinquency; (2) equip the City of Jackson with the proper technology,
training, and equipment to fight crime; (3) assist local communities in
developing and implementing crime prevention programs; and
(4) support a broad range of activities to prevent and control crime
based on local needs and conditions. As shown in Exhibit 1, since
2006 the City of Jackson was awarded $4,428,798 to implement these
activities.

 Exhibit 1: Grants Awarded to the City of Jackson, Mississippi
                         START                         AWARD                         1
 AWARD NUMBER                         END DATE                            PROGRAM
                         DATE                          AMOUNT

                                                                      Juvenile Justice
 2006-JL-FX-0079       09/01/2006     08/31/2010       $424,508       and Delinquency
                                                                        Prevention
                                                                         Community
                                                                      Oriented Policing
 2006-RG-CX-0017       10/01/2006     12/31/2008      1,428,500       Services (COPS)
                                                                                    2
                                                                        Technology
                                                                       Byrne Justice
 2007-DJ-BX-0570       10/01/2006     09/30/2010        591,940       Assistance Grant
                                                                        (Byrne JAG)
 2007-WS-Q7-0063       10/01/2007     12/31/2008        200,000        Weed and Seed
 2008-WS-QX-0150       10/01/2008     12/31/2009        150,000        Weed and Seed
                                                                         Byrne JAG
 2009-SB-B9-3222       03/01/2009     02/28/2013      1,633,850
                                                                       (Recovery Act)
                                           Total    $4,428,798
Source: Office of Justice Programs


      1
          These programs are described in more detail in the Introduction section.

      2
          The COPS Technology grant was funded under a Fiscal Year 2006 Bureau of
Justice Assistance (BJA) program mandated by the Congress and administered by OJP.

                                           ii
      The City of Jackson, located in Hinds County, Mississippi, has a
population of about 184,000, and a police force of 430 officers. Two of
the grants we audited were based on a joint grant application between
the City of Jackson and Hinds County. 3 As the primary recipient of
these two grants, the City of Jackson is responsible for Hinds County’s
and any other subrecipients’ compliance with the terms and conditions
of the grants.

      The purpose of this audit was to determine whether the City of
Jackson and subrecipients used grant funds for costs that were
allowable, supported, and in accordance with applicable laws,
regulations, guidelines, and terms and conditions of the grants. We
also audited whether recipients of grant funds met or were meeting
the objectives outlined in the grant programs and applications.

       We tested compliance with essential grant conditions pertaining
to internal controls, grant drawdowns, budget management and
control, grant expenditures, matching costs, property management,
financial and progress reports, grant objectives and accomplishments,
and monitoring of subrecipients. We also tested compliance with
reporting requirements pertaining to the Recovery Act.

      We found the City of Jackson generally complied with
requirements pertaining to internal controls, grant drawdowns, and
budget management and control. However, we found weaknesses in
the areas of grant expenditures, matching costs, property
management, financial and programmatic reports, grant goals and
accomplishments, and monitoring of subrecipients. Specifically, we
found the City of Jackson:

   •	 charged unallowable and unsupported costs to grant funds;

   •	 did not provide records showing it met the matching

      requirements of the grants;


   •	 did not properly manage equipment bought with grant funds;

   •	 did not submit accurate Financial Status Reports;



      3
          When one unit of local government bears more than 50 percent of another
local unit of government’s costs of prosecution and incarceration, those units are
required to submit a joint grant application for Byrne JAG funding.

                                        iii
  •	 did not submit complete, accurate, and timely Progress Reports;

  •	 did not meet or could not show that it met grant goals and
     objectives; and

  •	 did not adequately monitor subrecipients of grant funds.

      Because of these weaknesses, we are concerned that the City of
Jackson may not be able to properly manage the over $1.6 million
awarded under the 2009 Recovery Act grant.

     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope,
and methodology are discussed in Appendix 1.




                                  iv
                              TABLE OF CONTENTS


INTRODUCTION........................................................................ 1

     Background.......................................................................... 2

     Recovery Act........................................................................ 3

     Audit Approach..................................................................... 3

FINDINGS AND RECOMMENDATIONS ....................................... 5

     Internal Control Environment ................................................. 5

         Financial Management System.......................................... 5

         Single Audit ................................................................... 5

     Drawdowns .......................................................................... 9

     Budget Management and Control ...........................................10

     Grant Expenditures ..............................................................10

        Personnel Costs .............................................................11

        Other Direct Costs .........................................................14

     Matching Costs ....................................................................16

     Property Management ..........................................................18

     Reporting ...........................................................................20

        Financial Status Reports .................................................21

        Categorical Assistance Progress Reports ...........................22

        Quarterly Recovery Act Reports .......................................24

     Program Performance and Accomplishments ...........................24

     Monitoring of Subrecipients...................................................27

     Conclusion ..........................................................................28

     Recommendations ...............................................................29

APPENDIX 1 - OBJECTIVES, SCOPE, AND METHODOLOGY....... 32

APPENDIX 2 - SCHEDULE OF DOLLAR-RELATED FINDINGS..... 34

APPENDIX 3 - UNALLOWABLE AND UNSUPPORTED OTHER

             DIRECT COSTS ................................................. 35

APPENDIX 4 - THE CITY OF JACKSON’S RESPONSE TO THE

             DRAFT AUDIT REPORT ..................................... 37

APPENDIX 5 - OJP’S RESPONSE TO THE DRAFT

             AUDIT REPORT................................................. 42

APPENDIX 6 - ANALYSIS AND SUMMARY OF ACTIONS

             NECESSARY TO CLOSE THE REPORT ................. 47

                               INTRODUCTION

       The Office of the Inspector General, Audit Division, has
completed an audit of Office of Justice Programs (OJP) grants,
including a 2009 American Recovery and Reinvestment Act (Recovery
Act) grant, awarded to the City of Jackson, Mississippi. The purposes
of the grants were to: (1) implement programs to prevent juvenile
delinquency; (2) equip the City of Jackson with the proper technology,
training, and equipment to fight crime; (3) assist local communities in
developing and implementing crime prevention programs; and
(4) support a broad range of activities to control and prevent crime
based on local needs and conditions. As shown in Exhibit 2, since
2006 the City of Jackson was awarded $4,428,798 to implement these
activities.

                              Exhibit 2:
           Grants Awarded to the City of Jackson, Mississippi
                        AWARD
                                      AWARD        AWARD
  GRANT NUMBER          START                                       PROGRAM
                                     END DATE      AMOUNT
                         DATE
                                                                Juvenile Justice
 2006-JL-FX-0079      09/01/2006     08/31/2010    $424,508     and Delinquency
                                                                  Prevention
                                                                   Community
                                                                Oriented Policing
 2006-RG-CX-0017      10/01/2006     12/31/2008   1,428,500     Services (COPS)
                                                                              4
                                                                  Technology
                                                                 Byrne Justice
 2007-DJ-BX-0570      10/01/2006     09/30/2010     591,940     Assistance Grant
                                                                  (Byrne JAG)
 2007-WS-Q7-0063      10/01/2007     12/31/2008     200,000     Weed and Seed
 2008-WS-QX-0150      10/01/2008     12/31/2009     150,000     Weed and Seed
                                                                   Byrne JAG
 2009-SB-B9-3222      03/01/2009     02/28/2013   1,633,850
                                                                 (Recovery Act)
                                         Total    $4,428,798
Source: Office of Justice Programs

      The City of Jackson received funding through four grant
programs. The Office of Juvenile Justice and Delinquency Prevention
(OJJPD) grant program helps state-level and community organizations
develop and implement effective and coordinated programs to prevent

       4
         The COPS Technology grant was funded under a FY 2006 Bureau of Justice
Assistance (BJA) grant program mandated by the Congress.


                                         1
juvenile delinquency, improve the juvenile justice system, enhance
public safety, hold offenders accountable, and provide treatment and
rehabilitative services to juveniles and their families.

      The COPS Technology grant program provided funding to equip
law enforcement agencies with the proper technology, training, and
equipment to fight crime. The City of Jackson received these funds
under a FY 2006 award program mandated by the Congress.

      Weed and Seed Programs aim to prevent, control, and reduce
violent crime, drug abuse, and gang activity in designated high-crime
neighborhoods. The strategy involves a two-pronged approach. Law
enforcement agencies “weed out” violent criminals and reduce drug
problems. Public and private community-based organizations “seed”
the much-needed human services, including prevention, treatment,
and neighborhood restoration programs.

       The Edward Byrne Memorial Justice Assistance Grant Program
(Byrne JAG Program) is the largest source of federal criminal justice
funding for state and local jurisdictions. The Byrne JAG Program
allows states, tribes, and local governments to support a broad range
of activities to prevent and control crime based on their own local
needs and conditions. Grant funds may be used for:

  •   law enforcement programs;

  •   prosecution and court programs,

  •   prevention and education;

  •   corrections and community corrections programs;

  •   drug treatment programs; and

  •   technology improvement programs.

Background

      The City of Jackson, located in Hinds County, Mississippi, is the
largest metropolitan area in the state, with a population of about
184,000 and a police force of 430 officers. Because Hinds County
bears more than 50 percent of the City of Jackson’s costs of
prosecution and incarceration, the city and the county were required to



                                  2

submit joint grant applications for the 2007 Byrne JAG and 2009 Byrne
JAG Recovery Act grants.

      As the primary recipient of the grants, the city is responsible for
monitoring Hinds County’s and any other subrecipients’ compliance
with applicable laws, regulations, guidelines, grant conditions,
spending, and outcomes and benefits attributed to the use of grant
funds. The city may use up to 10 percent of the Byrne JAG grant
funds to cover its costs of administering those grants.

Recovery Act

       In February 2009, Congress passed the American Recovery and
Reinvestment Act (Recovery Act) to help create jobs, stimulate the
economy and investment in long term growth, and foster
accountability and transparency in government spending. The
Recovery Act provided $787 billion for tax cuts, education, health care,
entitlement programs, contracts, grants, and loans. Recipients of
Recovery Act funds are required to report quarterly to
FederalReporting.gov on how they spent Recovery Act funds and the
numbers of jobs created or saved. The DOJ received $4 billion in
Recovery Act funds and made almost $2 billion of that funding
available through the Byrne JAG Program.

Audit Approach

      The purpose of this audit was to determine whether the City of
Jackson and its subrecipients: (1) used grant funds for costs that
were allowable, supported, and in accordance with applicable laws,
regulations, guidelines, and terms and conditions of the grants; and
(2) met or were meeting the goals outlined in the grant programs and
applications. We also assessed the City of Jackson’s management of
Recovery Act grants and whether it timely and accurately reported
Recovery Act spending and job data to FederalReporting.gov.

      We tested compliance with what we consider to be the most
important conditions of the grant awards. Unless otherwise stated in
our report, the criteria we audited against are contained in the OJP
Financial Guide, grant award documents, Code of Federal Regulations,
Office of Management and Budget Circulars, and the American
Recovery and Reinvestment Act. We tested the City of Jackson’s:




                                    3

  •	 internal controls to identify plans, policies, methods, and
     procedures adopted by the City of Jackson to meet its missions,
     goals, and objectives;

  •	 grant drawdowns to determine whether grant drawdowns were
     adequately supported and if the City of Jackson was managing
     grant receipts in accordance with federal requirements;

  •	 budget management and control to identify any budget

     deviations between the budgets approved for each cost

     category;


  •	 grant expenditures to determine whether costs were
     allowable, supported, reasonable, and properly charged to the
     grants;

  •	 matching costs to determine whether the City of Jackson

     provided its matching share of grant costs;


  •	 property management to determine whether the City of
     Jackson could account for property bought with grant funds and
     whether the property was being used for grant purposes;

  •	 financial and progress reports to determine whether those
     reports were submitted timely and accurately reflected grant
     activity;

  •	 program performance and accomplishments to determine if
     the City of Jackson met or is capable of meeting the grants’
     objectives; and

  •	 monitoring of subrecipients to determine whether the City of
     Jackson took appropriate steps to ensure that subrecipients
     complied with grant requirements.

      When appropriate, we also tested for compliance in the area of
program income. In conducting our audit, we performed sample
testing in the areas of grant expenditures; property management;
financial, progress, and Recovery Act reports; program performance
and accomplishments; and monitoring of subrecipients.




                                  4

               FINDINGS AND RECOMMENDATIONS

     We found that the City of Jackson: (1) charged 

     unallowable and unsupported costs to grant funds,

     (2) could not show that it had provided its matching share
     of grant costs, (3) did not properly manage equipment
     bought with grant funds, (4) submitted incorrect and
     incomplete financial and progress reports, (5) did not meet
     or could not show that it met grant goals and objectives,
     and (6) did not adequately monitor subrecipients of grant
     funds.

Internal Control Environment

       We reviewed the City of Jackson’s financial management system,
policies and procedures, and FY 2008 Single Audit Report to assess the
risk of non-compliance with laws, regulations, guidelines, and terms
and conditions of the grants. We also interviewed individuals from
payroll, purchasing, and accounts payable and observed accounting
activities to further assess risk.

Financial Management System

      The City of Jackson’s financial management software is the
Jackson Information Management System (JIMS), a third party
software package that contains applications for budget, revenue,
accounts payable, payroll, general ledger, purchasing, and property
and equipment. Our review of the JIMS found that it appears to have
an adequate system of internal controls to ensure compliance with
applicable requirements of the grant programs we audited. The
system of controls provides adequate separation of duties, separate
accounting for each grant, and traceability to supporting
documentation.

Single Audit

       According to Office of Management and Budget (OMB)
Circular A-133, Audits of States, Local Governments, and Non-Profits,
the City of Jackson is required to have a Single Audit performed
annually with the report due no later than 9 months after the end of
the fiscal year. The City of Jackson’s fiscal year is from October 1
through September 30. Its single audit is due June 30. However, the
city’s FY 2008 Single Audit report was not issued until May 2010,
which is more than 10 months late. A city official told us the report


                                  5

was delayed because the audit was started late and there were errors
in the City of Jackson’s fixed asset balances for land, buildings, and
infrastructure.

      We reviewed the FY 2008 Single Audit report which identified the
following audit findings that could affect DOJ grants and the city’s
response to those findings.

  •   Finding 2008-01 – Financial Statement Preparation

      The city did not have adequate procedures to ensure accounting
      records agreed with the supporting records. As a result, the
      city's financial statement amounts pertaining to assets contained
      significant errors. City personnel appear to rely on external
      auditors to identify and bring significant errors to the attention of
      accounting personnel.

      In response to the audit, the city planned to hire additional staff
      to assist in the financial reporting process. The additional staff
      will ensure accounting records are compared to the supporting
      records and account balances are reported in accordance with
      generally accepted accounting principles.

  •   Finding 2008-02 – Adjustment to the Accounting Records

      The city did not have procedures for reviewing and approving
      adjustments to accounts reported in the financial statements.
      Twelve of 20 accounting records tested were not approved by
      someone independent of the preparer. In addition, the
      Controller was able to prepare and post accounting adjustments
      without review or approval.

      In response to the audit, the city stated that the Office of the
      Director of Administration will approve all adjusting journal
      entries.

  •   Finding 2008-03 – Asset Records

      The city did not continuously evaluate the effectiveness of
      internal control over recording and reporting certain assets, nor
      has management effectively monitored transactions pertaining to
      certain assets. About 40 percent of the city’s departments did
      not complete and submit an annual inventory report showing
      additions and disposals throughout the year. Asset records are


                                    6

    recorded on one of two different tracking systems and some
    assets were tracked on both systems. There appeared to be
    confusion about where the assets should be reported. There
    were many errors in the asset records.

    In response to the audit, the City planned to: (1) implement
    improved procedures for recording and reporting certain assets,
    (2) ensure department managers verify inventory reports and
    balances to the city’s accounting records, (3) provide written
    instructions to department directors on maintaining asset
    records, (4) develop procedures to consolidate and reconcile all
    asset records, and (5) provide additional training pertaining to
    the acquisition of assets.

•   2008-06 – Internal Controls Over Cash Reconciliations

    The city did not evaluate the continuing effectiveness of internal
    controls over cash reconciliation procedures. One of the city’s
    accounts had a $500,000 discrepancy that had not been
    reconciled in the 18-month period since October 2007.

    In response to the audit, the city stated that cash reconciliations
    will be reviewed and approved by the Controller and the Office of
    the Director of Administration. The preparer and reviewer will
    provide their initials and the date they performed the
    reconciliation.

•   2008-07 – Internal Controls Over Cash Receipts

    The city did not evaluate the continuing effectiveness of internal
    control over cash receipts. Property taxes received by the city in
    February were not deposited until April.

    In response to the audit, the city stated that it was city policy to
    deposit cash receipts on a timely basis. The city will implement
    procedures to ensure it complies with existing policy.

•   2008-08 – Schedule of Expenditures of Federal Awards

    The city made errors and omitted other information when it
    prepared the Schedule of Expenditures of Federal Awards, which
    is part of the annual Single Audit requirement. For some federal
    awards, the city reported cash receipts instead of accrued
    amounts.


                                  7

  In response to the audit, the city hired two grant managers and
  centralized its management of grants. When preparing the
  Schedule of Expenditures of Federal Awards, grant accountants
  will use the Catalog of Federal Domestic Assistance (CFDA) to
  obtain the appropriate name of the funding agency and CFDA
  number. Because the grant accountants will prepare the
  financial reports and drawdowns, they will have the information
  needed to correctly prepare the Schedule of Expenditures of
  Federal Awards.

•	 2008-10 – Contractor Monitoring

  The city did not have procedures to ensure consistent monitoring
  of contractors compliance with certain federal laws. Because
  responsibilites were not clearly defined, monitoring
  responsibilities shifted between individuals and departments.

  In its response to the audit, the city stated that it had
  implemented procedures for monitoring contractors’ compliance
  with federal laws.

•	 2008-11 – Monitoring of Subrecipients

  The city did not have adequate procedures to ensure
  subrecipients complied with reporting requirements. Auditors
  found that one subrecipient did not submit the required 2007
  and 2008 annual audit reports within 6 months of the fiscal year
  end as required by the contract between the city and the
  subrecipient.

  In its response to the audit, the city said it would ensure that
  adequate personnel resources are devoted to performing the
  necessary procedures.

•	 Finding 2008-13 – Timely Completion of FY 2008 Single
   Audit

  The city’s audited financial statements and report on compliance
  for the year ended September 30, 2008, were not completed
  within the required 9 months after the end of the city’s fiscal
  year.




                                8

     In its response to the audit report, the city stated that it had
     contracted with an outside auditor to prepare the FY 2009 audit.
     The contract requires the auditor to meet the 9-month deadline
     for completing the audit.

     Because the FY 2008 Single Audit report was not issued until
May 2010, we did not test whether the city had implemented its
planned corrective actions.

Drawdowns

      The OJP Financial Guide, Part III, Chapter 1, generally requires
that recipients time their drawdown requests to ensure that federal
cash-on-hand is the minimum needed for disbursements to be made
immediately or within 10 days. For Byrne JAG grants, recipients may
draw down any or all grant funds in advance for grant costs. However,
they must establish a trust fund in which to deposit the grant funds.

       We interviewed City of Jackson officials responsible for
requesting drawdowns and reviewed drawdown procedures and the
city’s accounting records. City officials told us that drawdowns were
based on actual expenditures in the accounting records. For the
grants we reviewed, we compared each drawdown amount to the
city’s accounting records and found that drawdowns generally matched
grant expenditures.

      For the 2007 Weed and Seed grant (Grant Number
2007-WS-Q7-0063), some drawdowns were more and some were less
than the actual expenditures because of overstatements and
understatements from one period to the next.

      Based on our comparison of drawdowns to the accounting
records, the city did not have excess federal cash-on-hand.
At the time of our audit, the city had not drawn down any of the
2009 Byrne JAG Recovery Act grant funds.

      During our testing of drawdowns we also noted that the award
period for two grants had expired and not all grant funds had been
used. The 2006 COPS Technology grant (Grant Number
2006-RG-CX-0017) ended on December 31, 2008, and $321,226 was
not drawn down. The 2008 Weed and Seed grant (Grant Number
2008-WS-QX-0150) ended on December 31, 2009, and $48,480 was
not drawn down. We recommend that OJP deobligate the $369,706
($321,226 plus $48,480) so that those funds can be put to better use


                                  9

elsewhere. Subsequent to the issuance of our draft report, OJP
provided documentation showing it had deobligated $356,754
($321,226 plus $35,528) of the $369,706 and the city had drawn
down the remaining $12,952 to cover grant costs incurred during the
grant award period.

Budget Management and Control

      According to the OJP Financial Guide, Part III, Chapter 5,
grantees may request a modification to their approved budgets to
reallocate dollar amounts among approved budget categories.
Whenever any of the following changes to approved budgets are
anticipated, grantees must obtain advance approval from OJP.

  •	 any budget revision that changes the scope of the project and
     affects a cost category that was not included in the original
     budget, and

  •	 cumulative transfers among approved budget categories that
     exceed or are expected to exceed 10 percent of the total
     approved budget (10-percent rule)

     Failure to adequately control grant budgets could lead to
wasteful or inefficient spending of government funds.

      We compared actual grant costs to the budgets approved in the
financial clearance memoranda for the 2006 Juvenile Justice
(Grant Number 2006-JL-FX-0079), the 2006 COPS Technology grant
(Grant Number 2006-RG-CX-0017), the 2007 Weed and Seed grant
(Grant Number 2007-WS-Q7-0063), and the 2008 Weed and Seed
grant (Grant Number 2008-WS-QX-0150). We found no evidence of
transfer of costs between approved budget categories that exceeded
10 percent of the award amounts for these grants.

     We did not test the city’s management of the budgets for the
2007 Byrne JAG grant (Grant Number 2007-DJ-BX-0570) and the
2009 Byrne JAG Recovery Act grant (Grant Number 2009-SB-B9-3222)
because the 10-percent rule is not applicable to those grants.

Grant Expenditures

      According to the OJP Financial Guide, Part III, Chapter 7,
allowable costs are those identified in Office of Management and
Budget (OMB) circulars and the grant program’s authorizing


                                  10

legislation. In addition, costs must be reasonable and permissible
under the specific guidance of the grants.

      We reviewed a sample of personnel costs, other direct costs, and
property items charged to grant funds and found the City of Jackson
charged unallowable and unsupported costs to grant funds. Details of
the questioned costs are discussed in this section of the report.
Details of the other direct costs we questioned are presented in
Appendix 3.

Personnel Costs

      We compared the names, positions, salaries, and fringe benefits
in the budgets approved by OJP to those paid with grant funds. We
found that the City of Jackson charged unallowable and unsupported
costs to grant funds and overestimated other grant costs when it
prepared its grant applications. For those grants with personnel costs,
we traced a sample of those costs to personnel records, timesheets,
payroll records, and other supporting documents. Our testing for each
of those grants is explained below.

      2006 Juvenile Justice Grant. For the 2006 Juvenile Justice grant
(Grant Number 2006-JL-FX-0079), OJP approved the salaries and
fringe benefits shown in Exhibit 3.

                         Exhibit 3:
 Approved Personnel Costs for the 2006 Juvenile Justice Grant
              Grant Number 2006-JL-FX-0079
                                                Fringe
          Position              Salary
                                              Benefits
    Director                                 $26,012       $5,072
    Data Entry/Office Manager                 14,401        2,808
    Youth Outreach Supervisor                 60,456       12,773
    Social Worker                             54,946       11,698
    Community City Prosecutor                 57,220            0
    Overtime for two police
                                                 63,200     4,835
    officers
    Total                                  $276,235       $37,186
    Source: Grant application submitted to OJP

      We tested these costs by judgmentally selecting two
non-consecutive pay periods and comparing the payroll costs for those
periods to the accounting records and the positions, salaries, and



                                      11
fringe benefits in the grant budget approved by OJP. We found that
$1,117 in salaries for a Social Worker for the pay period ended
July 17, 2007, were charged twice to grant funds. The accounting
records showed two $1,117 salary transactions dated July 15, 2007.
The city combined both transactions into a single $2,234 payment to
the employee for the pay period ended July 15, 2007. We asked a
grant accountant about the duplicate payment but she offered no
explanation. During our testing we also found that $403 of the Grant
Director’s health insurance costs was charged to the grant. However,
health insurance for the Grant Director was not included in the grant
budget approved by OJP. We question the $1,117 and $403 as
unallowable. The Grant Accountant told us that charging these costs
to the grant was an oversight on her part. Subsequent to the issuance
of our draft report, the city provided documentation to support that
$1,117 was for an earlier pay period for which the employee had not
been paid. The city also provided documentation showing it had
reallocated the $403 in unallowable health insurance costs to an
employee whose health insurance costs were allowable because that
employee’s position was included in the grant budget approved by
OJP.

      The grant budget also included $63,200 for overtime for two
police officers and $4,835 for Social Security taxes (6.2 percent) and
Medicare taxes (1.45 percent) on the overtime costs. However, during
discussions with the Finance Director and the interim Personnel
Director we learned that City of Jackson police officers do not pay
Social Security taxes on their earnings. The interim Personnel Director
provided documentation showing police officers who participate in the
Mississippi Public Employees’ Retirement System are exempt from
those taxes. Consequently, when the City of Jackson prepared its
grant applications and budgets, it overestimated its personnel costs by
$3,918 ($63,200 for overtime times 6.2 percent). The official who we
spoke to did not know why Social Security taxes were included in the
grant applications and budgets. We recommend that OJP
deobligate the $3,918 in excess funds awarded under Grant Number
2006-JL-FX-0079 so that those funds can be put to better use
elsewhere. Subsequent to the issuance of our draft report, OJP
provided documentation showing it had approved the city’s request for
a budget modification that would permit the city to use the $3,918 for
other allowable grant costs.

      2007 Weed and Seed grant. For the 2007 Weed and Seed grant
(Grant Number 2007-WS-Q7-0063), the budget detail worksheet
included $64,145 for overtime and associated fringe benfit costs for


                                  12

police officers. Of that amount, $18,092 was to be provided from
grant funds and $46,053 was to be provided from local matching
funds. The overtime was to be used to conduct drug enforcement
operations in targeted areas and assist in community outreach
activities conducted outside of normal working hours. As discussed
later in the Matching Costs section of this report, the City of Jackson
did not provide or could not show that it had provided its matching
share of grant costs.

       We reviewed the accounting records for overtime costs charged
to this grant and found one transaction for $21,283. We reviewed the
supporting documentation and found that $18,880 (944 overtime
hours times $20 per hour) of $21,283 was supported by overtime slips
showing that the police officers performed work on behalf of the
2007 Weed and Seed grant. However, the remaining $2,403
($21,283 minus $18,880) is unsupported because the overtime slips:
(1) did not did not agree with the number of overtime hours charged
to grant funds, (2) were for time not associated with 2007 Weed and
Seed grant activities, or (3) were for periods of time outside the
timeframe of 2007 Weed and Seed operations.

       2007 Byrne JAG grant. For the 2007 Byrne JAG grant
(Grant Number 2007-DJ-BX-0570) the City of Jackson and Hinds
County, Mississippi, submitted a joint application and separate budgets
for a total of $591,940 in 2007 Byrne JAG grant funds. The City of
Jackson’s grant budget did not include personnel costs. Hinds
County’s grant budget included $99,892 in salaries and fringe benefits
for a Court Facilitator ($49,946) and an Assistant Public Defender
($49,946).

      We selected two non-consecutive pay periods and traced
$22,607 in salaries ($17,200) and fringe benefits ($5,407) to the
payroll records, timesheets, and other documentation provided by
Hinds County. We found that the $17,200 in salaries were properly
authorized, accurately recorded in the accounting records and properly
charged to the grant. However, the City of Jackson provided no
supporting documentation for $5,407 charged to the grant for fringe
benefits. We question the $5,407 as unsupported. These unsupported
costs were charged to grant funds because the City of Jackson did not
adequately monitor subrecipients’ compliance with the fiscal and
programmatic requirements of the grants. Management of
subrecipients is discussed later in this report.




                                   13

      For the 2006 COPS Technology grant (Grant Number
2006-RG-CX-0017) and the 2008 Weed and Seed grant (Grant
Number 2008-WS-QX-0150), no personnel costs were charged to
grant funds. At the time of our audit no grant funds had been drawn
down for the 2009 Byrne JAG Recovery Act grant (Grant Number
2009-SB-B9-3222).

Other Direct Costs

       We tested other direct costs charged to the grants to determine
if those costs were properly authorized, appropriately classified in the
accounting records, supported by documentation, and properly
charged to the grants.

       2006 Juvenile Justice Grant. For the 2006 Juvenile Justice
grant (Grant Number 2006-JL-FX-0079), we tested $19,974
(25 transactions), which is 80 percent of the other direct costs charged
to this grant. We found that all the expenditures we tested were
properly authorized, appropriately classified in the accounting records,
supported by documentation, and properly charged to the grant.

      2006 COPS Technology Grant. For the 2006 COPS Technology
grant (Grant Number 2006-RG-CX-0017), we tested $1,107,274
(14 transactions), which is 100 percent of the costs charged to this
grant. We found all of the expenditures we tested were properly
authorized and classified in the accounting records, supported by
appropriate documentation, and properly charged to the grant.

      2007 Byrne JAG Grant. For the 2007 Byrne JAG grant (Grant
Number 2007-DJ-BX-0570), we tested $153,714 (9 transactions),
which is 100 percent of the other direct costs charged to grant funds.
Of the amount tested, $67,445 (4 transactions) was for payments to
Hinds County. One of those payments for $48,697 was for three
patrol cars. We found that all the expenditures we tested were
properly authorized and classified in the accounting records, supported
by appropriate documentation, and properly charged to the grant.

       2007 Weed and Seed Grant. For the 2007 Weed and Seed
 grant (Grant Number 2007-WS-Q7-0063), we tested $88,935
(25 transactions), which is 49.8 percent of the other direct costs
charged to this grant ($88,935 divided by $178,717). Our sample
consisted of $5,003 (3 transactions) expended by the City of Jackson
for its grant costs and $83,933 (22 transactions) the City of Jackson
paid to seven subrecipients for their grant costs. Payments to


                                   14

subrecipients were a combination of advance payments and
reimbursements.

      We found that all of the expenditures we tested were properly
authorized and classified in the accounting records. However,
$26,235 (29.5 percent of the amount we tested) was not supported by
adequate documentation ($23,758) or was for unallowable costs
($2,477). Details of these questioned costs are presented in
Appendix 3. Subsequent to the issuance of our draft report, the city
provided documentation to support $10,476 of $23,758 in
unsupported costs.

      2008 Weed and Seed Grant. For the 2008 Weed and Seed
grant (Grant Number 2008-WS-QX-0150), we tested $69,261
(18 transactions), which is 100 percent of the other direct costs
charged to grant funds. All of these transactions were either advance
payments or reimbursements to subrecipients for their grant costs.

      We found that all of the expenditures we tested were properly
authorized and classified in the accounting records and properly
charged to the grants. However, $8,547 (12.3 percent of the amount
we tested) was not supported by adequate documentation ($8,117) or
was for unallowable costs ($430). Details of these questioned costs
are presented in Appendix 3. Subsequent to the issuance of our draft
report, the city provided documentation to support $7,272 of $8,117 in
unsupported costs.

      2009 Byrne JAG Recovery Act Grant. At the time of our audit,
no grant funds had been drawn down for the 2009 Byrne JAG
Recovery Act grant.

      In summary, we tested $1,439,158 (91 transactions) in other
direct costs, which is 93.8 percent of other direct costs charged to the
grants. Of this amount, we question $34,782 (2.4 percent of the other
direct costs we tested) as unsupported ($31,875) or unallowable
($2,907). All of the other direct costs we questioned were for the
2007 and 2008 Weed and Seed grants. We recommend OJP remedy
these questioned costs. Subsequent to the issuance of our draft
report, the city provided documentation to support $17,748 of
$31,875 in unsupported costs.




                                  15

Matching Costs

      According to the OJP Financial Guide, Part III, Chapter 3,
matching funds for a grant project must be in addition to funds that
would otherwise be available. Grant recipients must maintain
accounting records that show the source, amount, and timing of all
matching contributions. The full matching share of costs provided
must be reported to OJP at the end of the grant period. Any matching
funds not provided by the grantee must be paid to the DOJ.

       2007 Weed and Seed Grant. The 2007 Weed and Seed grant
(Grant number 2007-WS-Q7-0063) required the City of Jackson to
provide $66,667 (25 percent of the $266,667 award amount) of the
program costs from local sources. In the grant application, the city
said it would pay $46,053 for the salary and fringe benefits of the
Weed and Seed Coordinator and $2,013 for a computer for the
satellite office in the Weed and Seed area. Community organizations
were to provide $6,209 in supplies and $12,392 in program related
training and services.

        At the conclusion of the grant, OJP notified the City of Jackson
that it had not provided its share of the grant costs. In response, the
city recategorized $66,667 in police officer salaries as its matching
share of 2007 Weed and Seed grant costs and submitted a revised
final financial report to OJP. We asked the city to provide supporting
documentation showing these officers’ salaries were for time spent on
behalf of the 2007 Weed and Seed grant, but as of June 2010 we had
not received a response. Consequently, we question the $66,667 as
unsupported grant costs. Subsequent to the issuance of our draft
report, the city provided documentation that it believed was adequate
to support that the city met the matching requirement for the grant.
However, that documentation was not sufficient because it did not
show the dates, officer names, and work those officers performed on
behalf of the 2007 Weed and Seed grant.

      2008 Weed and Seed Grant. The 2008 Weed and Seed grant
(Grant Number 2008-WS-QX-0150) required the City of Jackson to
provide $50,000 (25 percent of the $200,000 award amount) of the
program costs from local sources. In the grant application, the City of
Jackson said it would pay $34,539 in overtime costs for police officers
working in the Weed and Seed area, and community organizations
would provide $15,461 in program related training and services.




                                   16

      To determine whether the city met the 25 percent matching
requirement for the grant, we interviewed city staff and reviewed the
accounting records and financial reports submitted to OJP. Exhibit 4
shows the last three financial reports for the 2008 Weed and Seed
grant.

                           Exhibit 4:
     Matching Share of Costs Reported by the City of Jackson
               Grant Number 2008-WS-QX-0150
                                                              Cumulative
            Quarter           Federal         Matching
                                                               Matching
             Ended             Share           Share
                                                                Share
          06/30/2009            $27,085         $50,000           $50,000
          09/30/2009             14,052          -50,000                0
          12/31/2009             36,159           38,157          $38,157
           Total              $114,472         $38,157
       Source: Financial Status Reports submitted to OJP

      We asked the city Finance Manager to provide the supporting
documentation for the matching costs, but those records were never
provided. When the grant ended on December 31, 2009, the City of
Jackson had drawn down $101,520. The remaining $48,480 of the
$150,000 award was not used. Based on the $101,520 federal share
of costs (75 percent), the city should have provided $33,840
(25 percent) from local funds. 5 Because the city did not provide
documentation to support its matching share, we questioned $33,840
as unsupported, which is the city’s 25 percent required match
[($101,520 divided by 75%) times 25%].

      We asked city officials about the matching share of costs for the
Weed and Seed grants. The Finance Manager told us that the city did
not have adequate procedures for documenting the contributions made
by the city or by community based organizations involved in the Weed
and Seed programs. To correct this problem, one city official proposed
to the city Finance Manager a methodology for accounting for in-kind
matching services. We recommend that OJP remedy $66,667 and
$33,840 in unsupported matching costs for the 2007 and 2008 Weed
and Seed grants, respectively, and ensure the City of Jackson
implements procedures for documenting its matching share of costs.
Subsequent to the issuance of the draft report, the city provided
documentation showing it met the matching requirement for the 2008
Weed and Seed grant. However, the $66,667 matching requirement

       5
          In the Financial Status Report for the quarter ended December 31, 2009, the
City reported a match of $38,157, but provided no documentation to support this.


                                        17
for the 2007 Weed and Seed grant remains unsupported because the
city has not provided the detailed accounting records showing the
dates, officer names, and work those officers performed on behalf of
the grant.

Property Management

      According to the OJP Financial Guide, Part III, Chapter 6, grant
recipients must be prudent in the acquisition and management of
property bought with federal funds. Property acquired with federal
funds should be used for the purposes stated in the grant programs
and applications, adequately protected from loss, and the property
records should indicate that the property was purchased with federal
funds.

      We obtained the accountable property records for each grant
and selected a judgmental sample for testing. We tested whether the
City of Jackson could account for those items and whether the items
were being used for the purposes stated in the grant applications. We
found that the city was able to account for all the items we tested.
However, in our judgment, the city has not been prudent in acquiring
and managing all property bought with federal funds. Details of our
testing are explained below.

       2006 Juvenile Justice Grant. For the 2006 Juvenile Justice grant
(Grant Number 2006-JL-FX-0079), the City of Jackson bought a $405
digital camera with grant funds. We physically verified that the
camera was being used for grant purposes and was properly recorded
in the property records.

      2007 Byrne JAG Grant. For the 2007 Byrne JAG Grant (Grant
Number 2007-DJ-BX-0570), the City of Jackson bought four property
items valued at $6,740 – a laptop computer and three desktop
computers with monitors. All property items were accounted for,
properly recorded in the accountable property records, and being used
for grant purposes. Hinds County bought three patrol cars using its
share of the award, but we did not test those property items.

      2006 COPS Technology Grant. For the 2006 COPS Tecnology
grant (Grant Number 2006-RG-CX-0017), the city spent $1,094,271 in
grant funds on various property items. We obtained the property
records from the City of Jackson and from the Jackson Police
Department because they had different thresholds for recording items
in the property records. We consolidated both lists and selected a


                                  18

sample of 31 property items valued at $143,733 for testing, which is
13 percent of the grant funds spent on equipment. All the property
items we tested were accounted for and recorded in the property
records as being purchased with federal funds. We did not attempt to
verify the serial numbers of 14 video cameras we tested because those
items were installed on poles or in locations that were not easily
accessible. However, our testing found other problems pertaining to
the city’s acquisition and management of accountable property.

       In December 2008, the City of Jackson spent $79,546 in grant
funds for a “line of fire” targeting package for the Police Department’s
firing range. At the time of our audit, the $79,546 targeting package
had still not been installed. We observed various components of the
package lying next to a building at the firing range. Several pieces
were in cardboard shipping boxes that appeared to be deteriorating
from exposure to the weather. A Police Department official told us the
equipment had not been installed because the city needed to spend an
additional $15,000 to prepare the site and lay a concrete foundation
for the equipment. The city approved the additional $15,000;
however, the supplier and the city’s Public Works Department
reviewed the site plan and determined that the cost to prepare the site
would be closer to $50,000.

      A Police Department official told us the city had purchased a
second firing range targeting package with funds from another grant.
We did not review that grant during this audit, but that firing range
targeting package was still in shipping boxes. An official told us the
City of Jackson is still seeking funding to install the two targeting
packages. In our judgment, the purchase of the training equipment
demonstrates poor planning and coordination on the part of the city
and the Police Department.

       The City of Jackson also spent grant funds for property that was
not issued and is now obsolete. In September and October 2007, the
City of Jackson spent $49,776 for 262 global positioning system (GPS)
units to assist police officers in responding to calls. At the time of our
audit, 161 of those GPS units valued at $31,418 were still in the
Jackson Police Department warehouse. A Jackson Police Department
official told us that the GPS units were not issued because the units
provided only geographic coordinates. That official told us the GPS
units are now obsolete because the Jackson Police Department is in
the process of installing laptop computers with GPS software that can
provide street names and addresses to assist officers in responding to
calls. In our judgment, the city wasted $31,418 in grant funds


                                    19

because the GPS units were never issued and are now obsolete. A
Police Department official told us that the purpose of the September
2007 purchase of GPS units was to use grant funds before the grant
expired. When we briefed city officials on the results of our audit, one
official told us the city may be able to use the GPS units for vehicle
tracking.

       In September 2007, the City of Jackson also spent $204,600 in
grant funds for 50 laptop computers to be installed in patrol cars. At
the time of our audit, 47 of those laptops valued at $192,324 were still
in the Jackson Police Department warehouse. A Police Department
official told us the laptops had not been installed because of a delay in
upgrading the city’s network infrastructure, and because the Police
Department wanted the laptops installed in newer vehicles and needed
to purchase additional equipment to complete the installation.
Subsequent to our audit, the city installed 19 of the laptop computers
in patrol cars. The purchase and installation of the laptop computers
is another example of poor planning and management of property
bought with federal funds.

      We recommend the OJP ensure the City of Jackson implements
procedures to coordinate with the Jackson Police Department on the
purchase, implementation, and management of property bought with
grant funds.

Reporting

       Grantees are required to submit timely and accurate financial
reports and grant progress reports to OJP. The city was required to
submit quarterly Financial Status Reports (FSR) to OJP within 45 days
after the end of each quarterly reporting period. Beginning October 1,
2009, the Federal Financial Report (FFR) replaced the FSR. FFRs are
due 30 days after the end of each calendar quarter. A final financial
report is due 90 days after the end of the grant period.

       Grant progress reports are due semiannually on January 30 and
July 30 of each year. The final grant progress report is due 90 days
after the end of the grant award period.

      For Recovery Act grants, grant recipients are required to report
quarterly to FederalReporting.gov, their grant expenditures and
numbers of jobs created and saved.




                                   20

Financial Status Reports

       We reviewed the most recent FSRs due for each grant to
determine whether the reports were submitted timely. 6 We found that
all FSRs were submitted by their due dates except one report. As
shown in Exhibit 5, for the 2007 Byrne JAG grant (Grant Number
2007-DJ-BX-0570), the FSR for the quarter ended December 31,
2008, was submitted 39 days late. The report was due February 14,
2009, but was submitted on March 25, 2009. An accountant told us
the report was late because the city was in the process of reorganizing
its accounting department. We consider the late report a minor
exception.
                               Exhibit 5:

             Financial Status Reports Submitted to OJP

                  Grant Number 2007-DJ-BX-0570

    REPORTING            Report Due             DATE REPORT             DAYS
     PERIOD                 Date                 SUBMITTED              LATE
  07/01/08-09/30/08        11/14/2008             10/14/2008              0
  10/01/08-12/31/08        02/14/2009             03/25/2009             39
  01/01/09-03/31/09        05/15/2009             05/14/2009              0
  04/01/09-06/30/09        08/14/2009             07/09/2009              0
Source: Office of Justice Programs

     We also tested the accuracy of the FSRs by comparing the
expenditures reported on those FSRs to the City of Jackson’s
accounting records.

      2006 COPS Technology grant. For the 2006 COPS Technology
grant (Grant Number 2006-RG-CX-0017), the FSR for the quarter
ended December 31, 2008, was understated by $30,724. The report
was incorrect because it did not include the cost of a $30,724
microscope purchased for the crime laboratory on December 30, 2008.

      2008 Weed and Seed grant. For the 2008 Weed and Seed grant
(Grant Number 2008-WS-Q7-0150), the FSR for the quarter ended
June 30, 2009, was incorrect because the city overstated its matching
share of costs by $50,000. We asked the city to provide supporting
documentation for the $50,000 but those records were never provided.
The city corrected the mistake when it submitted the FSR for the
quarter ended September 30, 2009. That report stated that the city’s
matching share of costs was $0. In March 2010, the city submitted

       6
         At the time of our audit, only three FSRs were due for the 2008 Weed and
Seed grant and no FSRs were due for the 2008 Byrne JAG Recovery Act grant. We
reviewed the four most recent FSRs for the other grants.


                                        21

the final FSR for the grant, which showed that the city’s share of costs
was $38,157. However, according to OJP’s record of grant drawdowns
dated March 11, 2010, the city’s matching share of costs should be
$33,840.

      For the other grants we audited, some FSRs were over and some
FSRs were under but were corrected in subsequent FSRs. For the
2009 Byrne JAG Recovery Act grant (Grant Number 2009-SB-B9-3222)
the City of Jackon accepted the award in October 2009. At the time of
our audit, no FRSs were due for that grant.

      In summary, we found that 14 of 19 FSRs we tested were
accurate when compared to the accounting records. However, as
discussed in other sections of this report, FSRs included unsupported
and unallowable costs. We recommend that OJP ensure the City of
Jackson submits accurate FSRs.

Categorical Assistance Progress Reports

      According to the OJP Financial Guide, Categorical Assistance
Progress Reports (Progress Reports) are due semiannually on
January 30 and July 30, or within 90 days after the end date of the
award. Progress Reports should contain information on program
objectives, accomplishments, and if applicable, reasons for not
meeting grant objectives and a corrective action plan.

      We tested the timeliness, completeness, and accuracy of
Progress Reports submitted for the prior two years. The results of our
testing are explained below.

      2006 Juvenile Justice Grant. For the 2006 Juvenile Justice grant
(Grant Number 2006-JL-FX-0079), the last four Progress Reports were
submitted timely. According to the grant program guide, the key
measure of performance for this grant is the number of youth and
families served. However, the Progress Reports we reviewed did not
contain this information. The reports listed other grant activities, such
as seminars and training events that were completed. We
judgmentally selected eight of those activities and found that all of the
reported activities could be traced to supporting documentation
provided by the Program Director.

      We asked the Program Director why the Progress Reports did not
include information on the number of youth and families served. He
told us that he was not aware of this reporting requirement, but he


                                   22

would include such information in future Progress Reports. Unless
grantees provide the required performace data in their Progress
Reports, grant program managers and the granting agency cannot
know whether grant programs are achieving their intended objectives.

      2006 COPS Technology grant. As shown in Exhibit 6, for the
2006 COPS Technology grant (Grant Number 2006-RG-CX-0017),
3 of 4 Progress Reports were submitted from 15 to 61 days late.

                              Exhibit 6:
                         Progress Reports for
                   Grant Number 2006-RG-CX-0017
                                                  DATE
         REPORT PERIOD        REPORT DUE         REPORT
        FROM - TO DATES          DATE           SUBMITTED    DAYS LATE
        01/01/07 – 06/30/07        07/30/2007   08/20/2007      21
        07/01/07 – 12/31/07        01/30/2008   03/31/2008      61
        01/01/08 – 06/30/08        07/30/2008   08/14/2008      15
        07/01/08 – 12/31/08        04/30/2009   02/20/2009       0
      Source: Office of Justice   Programs

      A Jackson Police Department official could not explain why the
Progress Reports were submitted late.

        We also tested the accuracy of the Progress Reports by
comparing information in those reports to supporting documentation.
The Progress Reports we reviewed stated that the city had purchased
various items of equipment for the Police Department. Because we
physically verified those property items during our audit testing, we
considered that the Progress Reports had accurately reported grant
activities. However, the fact that grant funds are being expended does
not ensure that grant goals and objectives are being achieved. For
example, as discussed the Accountable Property section of this report,
some property items the City of Jackson bought with grant funds were
still in a warehouse 2 years after the items were purchased.

       2007 Byrne JAG grant. For the 2007 Byrne JAG grant
(Grant Number 2007-DJ-BX-0570), the two Progress Reports we
reviewed were submitted timely and accurately reflected grant related
activities.

     2007 Weed and Seed grant. For the 2007 Weed and Seed grant
(Grant Number 2007-WS-Q7-0063), the two reports we reviewed were




                                          23
both submitted 6 days late. We consider the late reports a minor
exception.

     2008 Weed and Seed grant. For the 2008 Weed and Seed grant
(Grant Number 2008-WS-QX-0150), 1 of 2 reports we reviewed was
submitted 4 days late. We consider the late report a minor exception.

      The Progress Reports for both Weed and Seed grants stated that
the City of Jackson had 200 students enrolled in afterschool activities
and that an average of 140 persons participated in neighborhood
restoration programs. However, we could not verify the reports were
accurate because the City of Jackson did not retain supporting
documentation. A City of Jackson official told us she was not aware
that she needed to keep such records. Unless grantees submit timely
and accurate Progress Reports, OJP cannot know whether grant
programs are achieving their intended objectives. At the time of our
audit, no Progress Reports were due for the 2009 Byrne JAG Recovery
Act grant (Grant Number 2009-SB-B9-3222).

Quarterly Recovery Act Reports

       The Recovery Act, Section 1512, requires recipients of Recovery
Act funds to report quarterly to FederalReporting.gov on how they
spent the funds and the numbers of jobs created or saved. The initial
report was due October 10, 2009, with quarterly reports due 10 days
after the close of each calendar quarter thereafter.

     For the quarters ended September 30, 2009, and December 31,
2009, the City of Jackson submitted its Recovery Act reports by the
due dates. Both reports stated that there were no grant expenditures
and no jobs created or saved. We confirmed that both reports were
accurate.

Program Performance and Accomplishments

      For each of the grants, we selected a judgmental sample of
grant goals and compared them to the Progress Reports and other
documentation to determine whether the City of Jackson had met or
was meeting program objectives.

      The goals of the 2007 and 2008 Weed and Seed grants were to
collaborate with law enforcement organizations to reduce crime,
promote community policing, provide intervention and treatment
programs, and restore targeted neighborhoods. As shown in Exhibit 7,


                                  24

 the City of Jackson developed performance measures for these goals,
 but it did not establish a baseline and capture the data needed to
 measure progress.

                               Exhibit 7: 

                   Goals and Accomplishments for the

                  2007 and 2008 Weed and Seed Grants

                                     Performance
            Goal                                                 Was Goal Met?
                                       Measure
 1. Collaborate with law        Reduce by 10 percent,        Could not determine.
 enforcement organizations to   the number of incidents      The City of Jackson did
 reduce criminal activity.      and victims of domestic      not establish a baseline or
                                violence.                    capture data needed to
                                                             measure changes in the
                                                             number of incidents and
                                                             victims.
 2. Promote the positive        Increase by 10 percent,      Could not determine.
 aspects of community           the number of police         The city did not establish
 policing throughout the City   officers serving as          a baseline or capture data
 of Jackson Police              mentors and volunteers       needed to measure
 Department.                    for community activities.    changes in the number of
                                                             officers.
                                Increase by 5 percent,       Could not determine.
                                the number of officers       The city did not establish
                                assigned to the Safe         a baseline or capture data
                                Neighborhood Initiative, a   needed to measure
                                community policing           changes in the number of
                                initiative for the Weed      officers.
                                and Seed site.
 3. Develop a variety of        Decrease by 10 percent,      Could not determine.
 alternative programs for       the number of youth          The city did not establish
 youth who are first-time       truant from school,          a baseline or capture data
 offenders or those who         dropping out of school,      needed to measure
 commit misdemeanor             committing crimes, and       changes in the number of
 offenses.                      becoming victims of          youth.
                                crime.
 4. Reduce the number of        Decrease by 5 percent        Could not determine.
 dilapidated structures,        each quarter, the number     The city did not establish
 unkempt and unsafe vacant      of derelict properties.      a baseline or capture data
 lots.                                                       needed to measure
                                                             changes in numbers of
                                                             derelict properties.
Source: City of Jackson’s grant applications and grant Progress Reports.

       As an example of the problem with baseline data, Goal
 Number 3 was to prevent crime by developing alternative programs for
 youth who are first-time offenders or those who commit misdemeanor
 offenses. The City said this would result in a 10 percent decrease in
 the number of youth truant from school, dropping out of school,


                                         25
committing crimes, and becoming victims of crime. The grant
Progress Reports stated that services had been provided to more than
200 persons, but those reports did not discuss the progress the city
had made at achieving the 10 percent decrease. A City of Jackson
official told us that she had not established a methodology for
collecting data and measuring progress. We could not verify whether
the 200 persons reported in the Progress Reports was accurate
because we were told it was “an average.” For the other grant goals,
the city also had not established a baseline or collected data needed to
measure progress.

       For the 2006 Juvenile Justice grant, the City of Jackson also had
quantifiable measures of performance, but had not established a
baseline or captured data to measure progress at achieving grant
goals.

       For the 2006 COPS Technology grant, the only objectives were
to purchase technology equipment to train police officers and improve
the Jackson Police Department’s operational capabilities. The City of
Jackson spent the grant funds on a targeting system for the Police
Department firing range, a camera to take photos of crime scenes, a
microscope for the crime laboratory, GPS units, laptop computers for
police cars, surveillance cameras, and software. Although the City of
Jackson purchased the equipment outlined in the grant application, a
large portion of that equipment had not been installed more than
2 years after it was purchased. According to a Police Department
official, some of those property items had become obsolete.
Consequently, the equipment bought with grant funds was not being
used to fight crime as outlined in the COPS Technology grant program.

        The goals of the 2007 Byrne JAG grant were to equip the City of
Jackson and Hinds County with equipment and training to streamline
their booking processes, purchase bullet proof vests for officers and
three patrol cars for Hinds County, pay the salaries of two court
facilitators, and train officers in community policing concepts. We
reviewed the City of Jackson’s accounting records and Progress
Reports submitted to OJP and concluded that the Progress Reports
were accurate. However, we could not determine whether the City of
Jackson met or was meeting the goals and objectives of the grant
because it had not identified appropriate measures of performance or
a method for measuring progress.




                                   26

      We did not test program performance and accomplishments for
the Recovery Act grant because at the time of our audit the City of
Jackson had not drawn down any of the Recovery Act grant funds.

     In summary, the City of Jackson needs to improve its process for
measuring progress towards achieveing grant goals and objectives.
The City of Jackson should implement a process for identifying
measurable grant goals and objectives, establishing a baseline from
which to measure progress, and tracking performance through the
completion of the grants.

Monitoring of Subrecipients

      According to the OJP Financial Guide, Part III, Chapter 9,
primary recipients of grant funds are responsible for monitoring
subrecipients to ensure they fulfill the fiscal and programmatic
requirements of the grants. The primary recipient is responsible for all
aspects of the program including proper accounting and financial
recordkeeping by the subrecipient including the receipt and
expenditure of funds and cash management.

      The City of Jackson and Hinds County submitted joint grant
applications for the 2007 Byrne JAG grant (Grant Number
2007-DJ-BX-0570) and the 2009 Byrne JAG Recovery Act grant
(Grant Number 2009-SB-B9-3222). As the primary recipient and fiscal
agent for these grants, the City of Jackson was responsible for
monitoring Hinds County’s compliance with fiscal and programmatic
requirements. However, a City of Jackson official told us there were
no policies or procedures for monitoring Hinds County because the city
was not aware of the monitoring requirements. The only monitoring
the City of Jackson did was to review the invoices that Hinds County
submitted for reimbursement of its grant costs. However, those
reviews were not adequate because some payments to Hinds County
were for unsupported costs. Subsequent to our audit, we were told
that the city had implemented a checklist for reviewing subrecipients’
program performance and plans to use the checklist for the Recovery
Act grant.

       The City of Jackson was also responsible for monitoring
subrecipients of 2007 and 2008 Weed and Seed grant funds
(Grant Numbers 2007-WS-Q7-0063 and 2008-WS-QX-0150). For
these grants, the City of Jackson had written agreements with six
community organizations to implement Weed and Seed grant
activities. To oversee these subrecipients the City of Jackson:


                                  27

  •	 evaluated their financial management systems, processes, and
     procedures;

  •	 identifed key internal controls and assessed their effectiveness;

  •	 participated in monthly community organization meetings to
     discuss grant goals and accomplishments;

  •	 conducted site visits and phone interviews; and

  •	 reviewed documentation the subrecipients submitted for

     reimbursement of their grant costs.


      Although these monitoring activities appear adequate, some
payments the City of Jackson made to subrecipients included
unallowable and unsupported costs. There were no subrecipients for
the 2006 Juvenile Justice Grant or the 2006 COPS Technology grant.

      In summary, the City of Jackson needs to improve its monitoring
of subrecipients. It reviewed and reimbursed subrecipients’ for their
grant costs, but some of those reimbursements were for unallowable
and unsupported costs. To ensure that subrecipients were meeting
grant goals and objectives, the City of Jackson had written agreements
with subrecipients of Weed and Seed grant funds and assigned a Site
Coordinator to monitor their grant activities. The City of Jackson had
no such process for the Byrne JAG grants, including the Recovery Act
grant. Subsequent to our audit, the city has implemented a checklist
for reviewing subrecipients’ performance and plans to use the checklist
for the Recovery Act grant.

Conclusion

      The City of Jackson generally complied with the requirements
pertaining to internal controls, grant drawdowns, and budget
management and control. However, we found weaknesses in the
areas of grant expenditures, matching costs, property management,
financial and programmatic reports, grant goals and accomplishments,
and monitoring subrecipients. Specifically, we found the following.

  •	 The city spent $44,113 in grant funds for costs that were

     unallowable or unsupported.





                                  28

  •	 The city did not provide, or could not show until after our draft
     audit report was issued, that it had provided its matching share
     of costs for the 2007 and 2008 Weed and Seed grants.

  •	 The city spent $225,540 for laptop computers, GPS units, and
     training equipment for the Police Department, but 2 years later
     those property items were still in a warehouse or had not been
     installed. Some of those property items had become obsolete.

  •	 Five of 19 Financial Status Reports submitted to OJP were

     incorrect when compared to the accounting records.


  •	 For the 2006 COPS Technology grant, 3 of 4 Progress Reports
     were submitted from 15 to 61 days late.

  •	 For the 2007 and 2008 Weed and Seed grants, we could not
     determine whether the Progress Reports were accurate because
     the city did not keep supporting documentation.

  •	 The city did not meet, or could not show that it met, the goals
     and objectives of the grants. For some grants, the city had not
     established appropriate performance measures. For other
     grants, the city had appropriate performance measures but did
     not establish a baseline or collect the data needed to measure
     progress.

  •	 The city did not monitor or did not adequately monitor
     subrecipients of grant funds. For some grants, the city was not
     aware that it needed to monitor the subrecipient. For other
     grants, the city’s monitoring process was not adequate because
     it reimbursed subrecipients for unsupported and unallowable
     costs.

      Because of these weaknesses, we are concerned that the City of
Jackson may not be able to properly manage the $1.6 million in
Recovery Act grant funds.

Recommendations

We recommend that OJP:

1.	 Deobligate $321,226 awarded under Grant Number
    2006-RG-CX-0017 because the award period has ended and those
    funds were not drawn down.


                                  29

2.	 Deobligate $48,480 awarded under Grant Number
    2008-WS-QX-0150 because the award period has ended and
    those funds were not drawn down.

3.	 Deobligate $3,918 awarded under Grant Number
    2006-JL-FX-0079 for Social Security taxes, which the city is not
    required to pay for its Police Officers.

4.	 Remedy $1,117 in unallowable salaries charged to Grant Number
    2006-JL-FX-0079.

5.	 Remedy $2,403 in unsupported officer overtime costs charged to
    Grant Number 2007-WS-Q7-0063.

6.	 Remedy $403 in unallowable health insurance costs charged to
    Grant Number 2006-JL-FX-0079.

7.	 Remedy $5,407 in unsupported fringe benefit costs charged to
    Grant Number 2007-DJ-BX-0570.

8.	 Remedy $2,477 in unallowable other direct costs charged to
    Grant Number 2007-WS-Q7-0063.

9.	 Remedy $23,758 in unsupported other direct costs charged to
    Grant Number 2007-WS-Q7-0063.

10. Remedy $8,117 in unsupported other direct costs charged to
    Grant Number 2008-WS-QX-0150.

11. Remedy $430 in unallowable other direct costs charged to
    Grant Number 2008-WS-QX-0150.

12. Remedy $66,667 in unsupported matching costs for
    Grant Number 2007-WS-Q7-0063.

13. Remedy $33,840 in unsupported matching costs for
    Grant Number 2008-WS-QX-0150.

14. Ensure the City of Jackson implements procedures to coordinate
    with the Jackson Police Department on the purchase,
    implementation, and management of property bought with grant
    funds.



                                  30

15. Ensure the City of Jackson submits accurate FFRs.

16. Ensure the City of Jackson submits complete, accurate, and timely
    Progress Reports.

17. Ensure the City of Jackson implements a process for measuring
    progress at meeting grant goals and objectives.

18. Ensure the City of Jackson implements procedures for monitoring
    subrecipients to ensure the subrecipients meet all fiscal and
    programmatic requirements of the grants.




                                 31

                                                                 APPENDIX 1

               OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review performance
in the following areas: (1) internal control environment; (2) drawdowns;
(3) budget management and control; (4) grant expenditures, including
personnel, other direct costs, and indirect costs; (5) matching costs;
(6) property management; (7) program income; (8) reporting, including
financial status reports, categorical assistance progress reports, and
quarterly Recovery Act reports; (9) program performance and
accomplishments; and (10) management of subrecipients. We
determined that tests pertaining to program income were not applicable
to the grants we audited.

      We conducted this audit in accordance with generally accepted
government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.

       Our audit scope covered the Byrne JAG Recovery Act grant and five
earlier grants with sufficient activity to test the city’s management of grants
and subrecipients. We tested compliance with what we consider to be the
most important conditions of the grants. Unless otherwise stated in our
report, the criteria we audit against are contained in the Office of Justice
Programs Financial Guide, Office of Management and Budget (OMB)
Circulars, and grant award documents.

      In conducting our audit, we performed sample testing in drawdowns;
grant expenditures, including personnel, direct, and indirect costs; FSRs;
Progress Reports; property management; program performance and
accomplishments; and monitoring of subrecipients. In this effort, we
employed a judgmental sampling design to obtain broad exposure to
numerous facets of the grants reviewed, such as dollar amounts or
expenditure category. We selected judgmental sample sizes for the testing
of each grant. This non-statistical sample design does not allow projection
of the test results to the universe from which the samples were selected.



                                      32

      In addition, we reviewed the timeliness and accuracy of FSRs and
Progress Reports, and Recovery Act reports; evaluated performance to grant
objectives, and evaluated the city’s monitoring of subrecipients. However,
we did not assess the reliability of the financial management system as a
whole.




                                   33

                                                         APPENDIX 2

              SCHEDULE OF DOLLAR-RELATED FINDINGS

Description                              Amount           Page
Unallowable Costs:

2006-JL-FX-0079 (Personnel Costs)               $1,520     11
2007-WS-Q7-0063 (Other Direct Costs)             2,478     15
2008-WS-QX-0150 (Other Direct Costs)               430     15
     Total Unallowable Costs                   $4,428

Unsupported Costs:

2007-WS-Q7-0063 (Personnel Costs)          $  2,403        13
2007-DJ-BX-0570 (Personnel Costs)             5,407        13
2007-WS-Q7-0063 (Other Direct Costs)         23,758        15
2008-WS-QX-0150 (Other Direct Costs)          8,117        15
2007-WS-Q7-0063 (Matching Costs)             66,667        16
2008-WS-QX-0150 (Matching Costs)             33,840        17
     Total Unsupported Costs              $140,192


Funds to Better Use:

2006-RG-CX-0017 (Drawdowns)               $ 321,226        9
2008-WS-QX-0150 (Matching Costs)             48,480        9
2006-JL-FX-0079 (Personnel Costs)             3,918        12
     Total Funds to Better Use            $373,624

      Total Dollar-Related Findings       $518,244




                                    34
                                                                          APPENDIX 3

       UNALLOWABLE AND UNSUPPORTED OTHER DIRECT COSTS 7

   Transaction          Check         Transaction       Amount         Amount
                                                                                      Notes
       Date            Number            Amount       Unallowable    Unsupported
 Grant Number 2007-WS-Q7-0063
 11/28/2007                 644034     $ 2,665.63     $      67.57                        (1)
 12/19/2008                 661566         4,398.77       2,365.00                        (2)
 02/13/2008                 647242           654.03          45.00                        (3)
 11/28/2007                 644034         2,665.63                  $     800.76         (4)
 2/4/2008                   647012         2,547.09                      2,547.09         (4)
 4/1/2008                   649444         2,010.04                         67.50         (4)
 3/10/2008                  648527         1,073.09                         74.99         (4)
 2/29/2008                  648235         3,561.88                      3,561.88         (4)
 9/2/2008                   656804         3,557.23                      3,557.23         (4)
 12/19/2008                 661698         3,092.35                      3,092.35         (4)
 5/19/2008                  651984           340.00                        340.00         (4)
 12/11/2007                 644912        15,000.00                      7,812.08         (4)
 2/13/2008                  647588        10,000.00                      1,087.84         (4)
 11/6/2008                  659761         5,510.00                        543.92         (4)
 12/19/2008                 661768         2,136.73                        271.96         (4)
     Subtotal                                              $2,477        $23,758
 Grant Number 2008-WS-QX-0150
 6/15/2009                  670112         1,581.66   $     10.00                         (6)
 6/26/2009                  671440         6,500.00        419.92                         (7)
 1/12/2009                  662363         1,351.12                         15.06         (4)
 2/12/2009                  663834         1,005.51                        761.00         (4)
 2/2/2009                   663443        15,000.00                      1,359.80         (4)
 3/17/2009                  665422        15,000.00                      2,693.90         (4)
 5/8/2009                   668102        15,000.00                        543.92         (4)
 6/26/2009                  671440         6,500.00                      2,143.45         (4)
 7/22/2009                  672446         5,000.00                        600.00         (4)
     Subtotal                                                $430         $8,117
 Total Questioned Costs                                    $2,907        $31,875
Source: OIG analysis of City of Jackson records

Notes:

(1) The subrecipient calculated utilities at a rate of 3 percent instead of the
    allowable 1 percent, which resulted in a $67.57 overcharge.

(2) Construction costs are not allowable for the 2007 Weed and Seed grant.




       7
        The transactions presented here are Other Direct Costs charged to the 2007 and

2008 Weed and Seed grants.



                                            35

(3) The city made a $45 error when it reimbursed the subrecipient for its
    grant costs.

(4) The city did not provide supporting documentation for the full amount of
    the payment. Supporting documentation for payroll should include
    timesheets and details of fringe benefit costs.

(5) The city did not provide documentation showing that it met the
    matching requirement of the grant. Matching costs are discussed on
    page 15.

(6) The subrecipient made a $10 mistake when it calculated its
    reimbursement request.

(7) According to Federal Travel Regulation 301-11.101, travels may be
    reimbursed 75 percent of the applicable rate of per diem for the day of
    departure and day of return from official travel. Weed and Seed
    representatives were reimbursed 100 percent of the applicable rate for
    all days the representatives were in travel status.




                                     36

                                                                                                                       APPENDIX 4

THE CITY OF JACKSON’S RESPONSE TO THE DRAFT AUDIT REPORT




      Offiu of . ke M oyor                                                                             219 S<>Ulh Preslden. Srme
      Ha"".y   Joh~"",. Jr..   Na.WlI"                                                                        1'0.. Office 8m I'
                                                                                               J ....."", Mi"i .. ippi 1920S'()()I~
                                                                                                       Telephone: 601-960'108'
                                                                                                        F..,.;mil.: 601·96().~19:




          July 20, 2010

         Mr. Ferris B. Polk
         Regional Audit Manager
         Office ofInspector General
         Atlanta Regional Audit Office
         75 Spring Street S.W., Suite 1130
         Atlanta, GA 30303

                                   Subject: Office of Justice Progra ms D raft Aud it Report
                                  Gr an t Numbers: 2006-JL-FX-0079; 2006·RG-CX-001 7;
                                  2007-DJ-BX· OS07i 2007-WS-Q7-0063; 2008-WS-QX-OISO
                                  a nd 2009_SB_B9_3222

         Dear Mr. Polk:

         This letter is in response to your correspondence dated June 25, 2010, transmitting the
         above draft audit report for tbe City of Jackson, Miss issippi ("COl''). The report contains
         eighteen (18) recommendations, with $148,597 in questioned costs and $369,706.00
         scheduled 10 be deobligated. For ea~e of review, the draft report recormnendations are
         restated in bold and are followed by Ihe City of Jack~on's re~ponse .

         City of Jackson (COl) responses 10 OJP recommendations:

                1. Deobllgat e $321,226 awa rded under Gra nt N umber 2006-RG-CX-0017
                   because tile awar d period has ended a nd th ose funds we t'e not drawn down.

                     The COJ can now demonstrate under the current City's leadership, additional staff,
                     accounting: system and drawdown procedure!I as to how the JPD can maximize utilization
                     of these technology fnnds in Jackson, Mississippi, with a six month no co.~t extension
                     period approved by OJP. Technology is critical in law enforcement in the CO], the
                     Capital City of lite State of Mississippi.




                                                               37

2. Deobligate $4S,4S() awarded uudcr Grnnt Numbcr 200S-WS-QX-0150
   because the award period has cnded and those funds were not drawn down.
   The COJ has included documentation to support that $12,952.28, including
   federal and matching requirements, had been obligated and drawn down within
   the ninety (90) day timeframc prior to March 31, 2010. The final liSR had
   $35,527.72 funds available for program activities submitted to OW. Also, the
   CO! Weed and Seed designation is scheduled to end in September 2010. The
   COJ is requesting that OJP do not doobligalc the remaining $35,527.72 awarded
   to the COl. Approval ofthis request from aJP will allow the COJ the opportunity
   to invest an estimated $6,000 in five organizations working in the Weed and Seed
   locations to: ( I) work on one of the four program objectives; and (2) develop
   neighborllood strategies to continue the mis.~ion of Weed and Seed beyond the
   status as a graduated sited that will end in September 201O.

3. Deobligate $3,9J8 awarded under Grant Number 2006...T(A"X-0079 for
   Social Security taxes, which the city Is not required to pay for its Police
   Officers.
   The cor has included documentation to support that there were no OJP funds
   drawn down andlor charged to said grant for social security taxes for the two
   police officers. Also, the COJ bas documentation that a budget modification was
   approved to move the social security taxes in the budget for the two police
   officers to an approved line item in the revised budget.

4, Remedy $1,11 7 in unallowable salaries charged to Grant Number
   2006-JL-FX-0079.
   The COJ has included documentation to support the expenditure ofSl,117 as an
   allowable salary charge to Grant #2oo6-1L-FX-0079. The social worker salary of
   $1,1 17 was 1I0t drawn down twice for the July 15,2007, pay period. l ile
   employee's hire date wa~ June 18, 2007. The employee did not receive a pay
   check for the period ending June 30, 2007. Therefore, the employee received pay
   for the work period ending June 30, 2007, and the period ending July 15, 2007.

5. Remedy $2,403 In unsupported officer overtime costs charged to Grant
   Number 2007-WS-Q7-0063.
   The COJ has included documentation from the JPD for overtime costs tlmt were
   to be reimhursed by tile Weed and Seed Grant that included 1,067 Ilours of
   overtime at II rate of$20 per hour. This calculation does include the $2,403.

6. Rcmedy $403 in unallowable health Insurance costs charged to Grant
   Number 2006-.rr..-FX-0079.
   The COJ has included documentation to support that the $403 in health insurance
   costs that were aHocated to the Grant Director's insurance cost has been
   reclassified and allocated to the Youth Outreach Supervisor. With this
   adjustment, this cost is now eligible under the grant.




                                     38

7. Remedy $5,407111 unsupported fringe bcncfit costs charged to
   Grant Number 2007-DJ-BX-0570.
   The COJ has included documentation to support a request pending with the DOl
   (0 approve a grant adjustment to allow the subrecipient, Hinds County, to pay
   fringcs associated with salaries supporte<i by Grant # 2007-DJ-BX-0507.

8. Remedy $2,477 In unallowable other direct costs charged to Grallt Number
   2007-WS-Q7-0063.
   The CO] has included documentation (0 support the $2,477 as allowable
   expenditures in Grant # 2007-WS-Q7-0063 . This documentation includes an
   ell"Or in calculation by thc City due to the transposing of an amount of $405 to
   $450. Thc $67.57 was allowable as an "other cost", which was within the
   budgcted amount. The $2,365.00 was all allowable cost for eOllsultant services
   that were used to conduct mentoring and skills development activity for at-risk
   youth (prevcntion, Intervention, & Treatment) and economic development
   (Neighborhood Restoration); not as a construction cost. This calculation docs
   include the $2,477.

9. Remedy $23,758 in unsupported other direct costs charged to Grllnt
    Number 2007-WS-Q7-0063.
    The CO] has included documentation to support $9,715.80 of the $23,758, and
    will continue to attempt to locate documentation for the balance.

10. Remedy $8,117 In unsnppurted other direct eods charged to Grant Number
    2008~WS-QX-0150,
    The COJ bas included support documentation for $6,757.33 with $1 ,359.67 being
    unsupported.

11. Remedy $430 in unallowable other direct costs to Gra nt Number
     2008-WS-QX-OISO.
    The COJ has included documentation to support travel costs as allowable expenses
    by employees who are in trllvel status on official businCllS. These eOSL~ must be in
    accordance with Federal andlor an organization's approved travel policy(ies) (sees
    OJPP Financial Guide 2009, page 76). Based upon the above, the COJ travel policy
    was used, which allows for 100 pCr{:ent reimbursement of M&IE (per diem) for the
    departure and return travel days. Therefore, we request that the finding be con~idered
    resolved.

12. Remed y $66,667 iuunsuppol"ted matching costs for Grant Numher
    2007-WS-Q7-0063.
    The COJ has included documentation of Transaction Detail Reports for the JPD
    officers who were paid from the City's general fund to support the match
    requirement of $66,667.




                                        39

1:5. Kemeny ~j:5,l'I4U In unsupported matching costs for Grant Numbel'
   2008-WS-QX-OISO.
   The COJ has included documentation of time sheets and overtime slips for the JPD
    OfficCl1! who were paid from the City's general fund to support the match
    requirement of$33,840.

14. Ensure the City of Jackson implements procedures to coordinate w\lh the
    Jackson Police Department on tile purchase, implementation, and
    management of property bought with grant funds.
    111e COl has implemented improved systems, policies and procedures to support
    full coordination with the Jackson Police Department (JPD) on purchasing,
    implementation and management of property obtained by the utilization of grant
    funds.

15, Ensure the City of Jackson submits accurate l<'Flli.
    The cor has implemented improved policies and procedures, as well as added
    stalTto ensure timely and accurate FFR's arc submitted to OJP.

16. Ensure the City of Jackson submits complete, accurate, and timely Progress
    Reports,
    The Cal has implemented improved policics, procedures and added staff to
    ensure that complete, accurate, and timely Progress Reports are submittoo to the
    Administration for review and approval to be forwarded to OJP.

17. En§urc. the City of Jacksonlmptemellts a process for measuring progress at
    meeting grant goals and objectives.
    The COJ has implemented policies, procedures and assigned slaff 10 ensure that a
    process is in place for measuring progress at JPD to meet grant goals and
    objectives.

lit Ensure the City of Jackson Implements             proeedure.~ for mou!toring
   subrecipicnts to ensure the subreciplents meet all fiscal and programmatic
   requirements of the grants.
   The cor has revised the monitoring procedures to increase program
   implementation oversight of subreeipient~ on all external funded grants.




                                     40

Currently in the COl, numerous changes have been made to improve policies,
procedures, monitoring, leadership in departments, staff and the overall management of
external funding. Therefore, we arc confident that the COl will properly manage the
funds awarded under the 2009 RecovcIY Act grant.

We respcctfu!1y request that the Office of Justice Programs consider the subject report
resolved, and provide the City of Jackson with written acceptance of the above actions.
The City of Jackson appreciates the opportunity afforded by the Office of Inspector
General to review and respond to the draft audit report. If you have questions, or need
additional information to process Ihis response, please contact Lee A. Unger, Director of
Administration at 601-960-1005 or via email; lunger@c jtv.jackson.ms.us.




/%w(
H~          son, I

Enclosure

cc:    Lee A. Unger, Director of AdministrJtion
       Sean Perkins, Chief of StaWAssistant ('j}icf Administrative Otftccr
       Thelman Boyd, Assistant Chief Administrative Officer
       Pieter Teeuwissen, City Attorney
       Rebecca Coleman, Chief, Jackson Police Department
       Ivory L. Williams, Deputy Chief Administrative Officer
       Corinne Fox, Director, PlaIUling & Development
       Michael Raff, Director, Human and Cultural Affairs




                                         41

                                                                                         APPENDIX 5

         OJP’S RESPONSE TO THE DRAFT AUDIT REPORT

                                                    u.s. Department of Justice
                                                    Office of Justice Programs

                                                    Office of Audit, Assessment, and Management




JUL 222010'

MEMORANDUM TO:               Ferris B. Polk
                             Regional Audit Manager
                             Office of the Inspector General
                             Atlanta Regional Audit Office

FROM:                         Mame<n A.
                              Director
                                          H'M'b<'t.Jti,~O,ti~
                                                    ~---.J
SUBJECT:                     Response 10 the Oreft udit Report, Office ofJustice Programs,
                             Gran/s Awarded to (he City o[Jackson, Mississippi

This memorandum is in response 10 your correspondence, dated June 25, 2010, transmitting the
subject draft audit report for the City of Jackson (City), Mississippi. We consider the subject
report resolved and request written acceptance ofthis action from your office.

The report contains 18 recommendations and $5 18,244 in questioned costs. For ease of review,
the draft audit report recommendations are reslated in bold and are followed by the Office of
Justice Programs (OJP) response.

1.     We recommend that OJp doobligate $321,226 awarded under grant number
       2006-RG-CX-OOI7 because the award period has ended and those funds were not
       drawn down.

       On July 14,2010, the Office oftbe Chief Financial Officer (OCPO) deobligated the
       remaining $321,226 balance on grant number 2006-RG-CX-00J 7 (see Attachment I).
       The Office of Justice Programs requests closure ofthis recommendation.

2.     We recommend tbat OJP dcobligate $48,480 awarded under grant number
       200S-WS-QX-01S0 because the award period has ended and tbose funds were not
       drawn down.

       On April 8, 2010, grant number 2008-WS-QX-0150 was progranunatically and fiscally
       closed, and the remaining $35,528 in grant funds were deobligated by the OCFO
       (see Attachment 2). The Office of Justice Programs requests closure of this
       recommendation.




                                              42

3.   We recommend tbat OJP deobligate $3,918 awarded under grant number
     2006-JL-FX-0079 for Social Security taxes, which the City is not required to pay for
     its Police Officers.

     On March 10,2010, a Grant Adjustment Notice (OAN) was approved for grant number
     2006-JL-FX-0079 by the Office of Juvenile Justice and Delinquency Prevention
     (see Attachment 3). The GAN approved the City's request for a budget modification to
     reprogram the 53,918 in Social Security taxes, which the City is not required to pay for
     its Police Officers, and also covered othcr budget revisions in the personnel, fringe
     benefits, travel, supplies, and other costs categorieS. The Office of Justice Programs
     requests closure of this recommendation.

4.   We recommcnd that OJP remedy the 51,117 in unallowable salarit:!! charged to
     grant number 2006-JL-FX-0079.

     We agree with the recommendation. We will coordinate with the City to remedy the
     $ 1,11 7 in unallowable salaries charged to grant number 2006-JL-FX-0079.

S.   We recommend that OJP remedy the 52,403 in unsupported officer overtime costs
     cbarged to grant number 2007-WS-Q7-0063.

     "We agree with the recommendation. We will coordinate with the City to remedy the
      $2,403 in unsupported officer overtime costs charged to grant number 2007-WS-Q7-0063.

6.   We recommend that OJP remedy the $403 in unallowable health insurance costs
     charged to grant numbcr 2006-JL-FX-0079.

     We agree with the recommendation. We will coordinate with the City to remedy the
     $403 in unallowable health insunmce costs charged to grant number 2006-JL-FX-0079.

7.   We recommend that OJP remedy the SS,407 in unsupported fringe benefit costs
     charged to grant number 2007-DJ-BX-0570.

     We agree with the recommendation. We will coordinate with the City to remedy the
     $5,407 in unsupported fringe benefit costs charged to grant number
     2007-DJ-BX-0570.

8.   We recommend that OJP remedy tbe S2j477 in unallowa ble otber direct costs
     cbarged to grant number 2007-WS-Q7-0063.

     We agree with the recommendation. We will coordinate with the City to remedy the
     $2,477 in unallowable other direct costs charged to grant number 2007-WS-Q7-0063.




                                             2




                                           43

9.    We recommend that OJP remedy the $23,758 in unsupported other direct costs
      charged to grant numbcr 2007-WS-Q7-0063.

      We agree with the recommendation. We will coordinate with the City to remedy the
      $23,758 in unsupported other direct costs charged to grant number 2007-WS-Q7-0063.

10.   We recommend thai OJP remedy the $8,117 in unsupported other direct costs
      charged to grant number 2008-WS-QX-0150.

      We agree with the recommendation. We will coordinate with the City to remedy the
      $8,1 17 in unsupported other direct costs charged to grant number 2008-WS-QX-OI50.

11.   We recommend that OJP remedy the $430 in unaUow able otber direct costs charged
      to grant number 2008-WS-QX-OI SO.

      We agree with the recommendation. We will coordinate with the City to remedy the
      $430 in unallowable other direct costs charged to grant number 2008-WS-QX-0150.

12.   We recommend that OJP remedy the $66,667 in unsupported matching costs for
      grant number 2007-WS-Q7-0063.

      We agree with the recommendation. We will coordinate with the City to remedy the
      $66,667 in unsupported matching costs cbarged to grant munber 2oo7-WS-Q7-0063.

13.   We recommend that OJP remedy the $33,840 in unsupported matching costs for
      grant number2008-WS-QX-0150.

      We agree with the recommendation. We will coordinate with the City to remedy the
      $33,840 in unsupported matching costs charged to grant number2oo8-WS-QX-0150.

14.   We recommend that OJP ensures that the City of Jackson implements procedures
      to coordinate with the J ackson Police Department on the purchase, implementation,
      and management ofplllp erty bought with grant funds.

      We agree with the recommendation. We will coordinate with the City to obtain a copy
      of procedures implemented to ensure that the City coordinates with the Jackson Police
      Department on the purchase, implementation, and management of property purchased
      with Federal grant funds.




                                             3




                                            44

IS.    We recommend that OJP ensures that the City of Jackson submits accurate FFRs.

       We agree with the recommendation. We will coordinate with the City to obtain a copy
       of procedures implemented to ensure that future Federal Financial Reports are accurately
       prepared and submitted to the OJP.

16.    We recommend that OJP ensures that tbe City of Jackson submits complete,
       accurate, and timely Progress Reports.

       We agree with the recommendation. We will coordinate with the City to obtain a copy of
       procedures implemented to ensure that future progress reports are complete, accurate, and
       timely submitted.

17.    We recommend that OJP ensures that the City of Jackson implements a process for
       measuring progress at meeting grant goals and objectives.

       We agree with the recommendation. We will coordinate with the City to obtain a copy of
       procedures implemented which ensure that an adequate process for measuring grant goals
       and objectives is in effect.

18.    We recommend tbat OJP ensures that the City of Jackson implements procedures
       for monitoring subrecipients to ensure the subrecipients meet all fiscal and
       programmatic requirements of the grants.

       We agree with the recommendation. We will coordinate with the City to obtain a copy of
       procedures implemented to ensure that subrecipicnts meet all fiscal and programmatic
       requirements of the grants.

We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require additional information, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 61&,2936.

Attachments

cc:    Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       James H. Burch, II
       Acting Director
       Bureau of Justice Assistance

       Amanlh:! LvCict:co
       Budget Analyst
       Bureau of Justice Assistance




                                               4




                                              45

cc:   Jeffrey W. Slowikowski
      Acting Administrator
      Office of Juvenile Justice and Delinquency Prevention

      Marilyn Roberts
      Deputy Administrator
      Office of Juvenile Justice and Delinquency Prevention

      Dennis Greenhouse
      Director
      Community Capacity Development Office

      Faith Baker
      Associate Director
      Community Capacity Development Office

      Cory Randolph
      Grant Program Specialist
      Community Capacity Development Office

      Marcia K. Paull
      Chief Financial Officer
      Office of the Chief Financial Officer

      Richard P. Theis
      Assistant Director
      Audit Liaison Group
      Justice Management Division

      OIP Executive Secretariat
      Control nwnber20101259




                                              5




                                              46

                                                                 APPENDIX 6

                   ANALYSIS AND SUMMARY OF ACTIONS

                    NECESSARY TO CLOSE THE REPORT


      The OIG provided a draft report of this audit to the City of Jackson and
OJP. The city’s comments are incorporated in Appendix 4 and the OJP’s
comments are incorporated in Appendix 5. The following provides the OIG
analysis of the responses and summary of actions necessary to close the
report.

Analysis of the City of Jackson’s Response to the Draft Audit Report

      In its response to the draft report, the city did not state whether it
agreed or disagreed with the findings and recommendations in the draft
report. The city’s response provided an update on the status of corrective
actions planned or taken on each of the recommendations. The city also
provided separately, extensive supporting documentation that it believed
was sufficient to close a substantial portion of the unsupported and
unallowable costs. During our audit we repeatedly asked for documentation
such as that provided after the issuance of our draft report. It is not clear to
us why this documentation was not available at the time of our audit as
required by the grant agreements. Our analysis of the city’s response and
supporting documentation is described below in Summary of Actions
Necessary to Close the Report.

Analysis of OJP’s Response to the Draft Audit Report

      In its response to the draft audit report, OJP stated that it agreed with
15 of the 18 recommendations. OJP said it would coordinate with the city to
obtain documentation to remedy the questioned costs and copies of policies
and procedures showing the city had implemented our management
improvement recommendations. OJP requested that the three remaining
recommendations be closed based on supporting documentation for actions
taken subsequent to our audit work. Our analysis of OJP’s response and
supporting documentation is discussed below.

Summary of Actions Necessary to Close the Report

 1.	 Closed. We recommended that OJP deobligate $321,226 awarded
     under Grant Number 2006-RG-CX-0017 because the grant period had
     expired and those funds had not been drawn down. In its response to
     the draft report, the city said it could maximize the use of those funds
     with a 6-month extension period granted by OJP. However, along with


                                      47

   OJP’s response to the draft report, it provided documentation showing
   those grant funds have been deobligated. Consequently, this
   recommendation is closed.

2.	 Closed. We recommended that OJP deobligate $48,480 awarded
    under Grant Number 2008-WS-QX-0150 because the grant period had
    expired and those funds had not been drawn down. In its response to
    the draft report, the city requested that OJP not deobligate the unspent
    funds so that it could continue the grant-funded program. However,
    along with its response to the draft report, OJP provided documentation
    showing that subsequent to our audit the city drew down an additional
    $12,952 and the remaining $35,528 was deobligated. Consequently,
    this recommendation is closed.

3.	 Closed. We recommended that OJP deobligate $3,918 awarded under
    Grant Number 2006-JL-FX-0079 for Social Security taxes, which the
    city is not required to pay for police officers. In its response to the
    draft report, the city stated that it had requested and received OJP
    approval to reprogram those funds for other allowable grant costs.
    Along with its response to the draft report, OJP provided documentation
    showing it approved the city’s request. Consequently, this
    recommendation is closed.

4.	 Closed. We recommended that OJP remedy $1,117 in unallowable
    salaries charged to Grant Number 2006-JL-FX-0079 for salaries
    charged twice to grant funds. The accounting records showed two
    $1,117 salary transactions that were both dated July 15, 2007, for the
    same employee. The city combined both transactions into a single
    $2,234 payment to the employee, which was recorded in the payroll
    records as salary for the pay period ended July 15, 2007. We asked a
    grant accountant about the duplicate payment but she offered no
    explanation. However, along with its response to the draft report the
    city provided documentation showing that the $1,117 was for an earlier
    pay period for which the employee had not been paid. OJP agreed with
    our recommendation and said it would coordinate with the city to
    remedy the questioned costs. This recommendation is closed based on
    documentation the city provided along with its response to the draft
    report.

5.	 Resolved. We recommended that OJP remedy $2,403 in unsupported
    overtime costs charged to Grant Number 2007-WS-Q7-0063. Details of
    the unsupported costs are explained on page 12 of this report. Along
    with its response to the draft report the city provided documentation
    that it said was sufficient to remedy these questioned costs. The


                                    48

   documentation consisted of a list of police officers with dates and
   amounts paid to those officers for overtime. However, the city did not
   provide the supporting overtime slips needed to verify that the
   overtime work was grant-related. OJP agreed with our
   recommendation and said it would coordinate with the city to remedy
   the questioned costs. This recommendation can be closed when the
   $2,403 has been remedied. To remedy these costs the city may
   provide overtime slips showing the officers’ overtime was for
   grant-related activities performed during the award period.

6.	 Closed. We recommended that OJP remedy $403 in unallowable
    health insurance costs charged to grant number 2006-JL-FX-0079.
    Along with its response to the draft report, the city provided
    documentation showing it had made an accounting adjustment that
    allocated the $403 to an employee whose health insurance costs were
    included in the grant budget approved by OJP. OJP agreed with our
    recommendation and said it would coordinate with the city to remedy
    the questioned costs. This recommendation is closed based on
    documentation the city provided with its response to the draft report.

7.	 Resolved. We recommended that OJP remedy $5,407 in unsupported
    costs charged to Grant Number 2007-DJ-BX-0570. Along with its
    response to the draft report, the city provided a copy of its request for
    a grant adjustment that, if approved, would be sufficient to remedy
    these questioned costs. OJP agreed with our recommendation and said
    it would coordinate with the city to remedy the unsupported costs. This
    recommendation can be closed when we receive documentation
    showing OJP approved a budget modification that permits the city to
    charge $5,407 in fringe benefit costs to the grant.

8.	 Resolved. We recommended that OJP remedy $2,477 in unallowable
    costs charged to Grant Number 2007-WS-Q7-0063. Of the unallowable
    amount, $112 was for overpayments to subrecipients ($67 and $45)
    and $2,365 was for costs related to a construction project, which is an
    unallowable cost item. In its response to the draft report, the city
    explained that it had mistakenly overpaid a subrecipient $67 for a
    utility bill, but the overpayment should be allowed because it was
    within the approved budget amount. The city’s response also stated
    that the $2,365 we determined was used for construction should be
    allowed because it was for consultant services used to conduct
    mentoring and skill development activities for at-risk youth and
    neighborhood restoration. However, during the audit we obtained a
    cost estimate and a cancelled check showing the $2,365 was for
    repairs. In addition, a monthly progress report from the subrecipient


                                    49

   stated that the subrecipient had recruited an individual and a youth
   group to do much needed repairs to the building. The city’s response
   did not explain why the remaining $45 in questioned costs should be
   allowable. In its response to the draft report, OJP agreed with our
   recommendation and said it would coordinate with the city to remedy
   the unallowable costs. This recommendation can be closed when the
   $2,477 has been remedied.

9.	 Resolved. We recommended that OJP remedy $23,758 in
    unsupported costs charged to Grant Number 2007-WS-Q7-0063. Along
    with its response to the draft report, the city provided documentation
    to support $10,476 of the amount we questioned. The city stated that
    it will attempt to locate additional supporting documentation. OJP
    agreed with our recommendation and said it would coordinate with the
    city to remedy the unsupported costs. The city has remedied $10,476
    by providing supporting documentation. This recommendation can be
    closed when the remaining $13,282 has been remedied.

10. Resolved. We recommended that OJP remedy $8,117 in unsupported
    costs charged to Grant Number 2008-WS-QX-0150. Along with its
    response to the draft report, the city provided documentation to
    support $7,272 of the amount we questioned. OJP agreed with our
    recommendation and said it would coordinate with the city to remedy
    the unsupported costs. This recommendation can be closed when OJP
    remedies the remaining $845 in unsupported costs.

11. Resolved. We recommended that OJP remedy $430 in unallowable
    costs charged to grant number 2008-WS-QX-0150. The unallowable
    costs consisted of a $10 mistake that resulted in an overpayment to a
    subrecipient and $420 in unallowable subrecipient travel costs. The
    unallowable travel costs consist of hotel expenses that exceed the
    allowable federal rate and 100 percent of the daily rate of per diem for
    the day of departure and day of return from official travel. During our
    audit we were told that subrecipients follow the city’s travel policy,
    which mirrors state and federal travel policies. In its response to the
    draft report, the city stated that its travel policy allows for 100 percent
    reimbursement of per diem for the day of departure and day of return
    from travel. The city also provided a copy of its travel policies, but the
    policies do not discuss whether travelers should follow state or federal
    travel regulations. The policies also do not discuss the allowable
    amounts for hotels and per diem. OJP agreed with our
    recommendation and said it would coordinate with the city to remedy
    the questioned costs. This recommendation can be closed when the
    questioned costs have been remedied.


                                     50

12. Resolved. We recommended that OJP remedy $66,667 in
    unsupported matching costs for Grant Number 2007-WS-Q7-0063. In
    its response to the draft report the city stated that its response
    included a transaction detail report for officers who were paid from the
    city’s general fund to support the match requirement. The 2-page
    report the city provided is reproduced below.

          PRECINCT 2 – OVERTIME MATCH REQUIREMENT
            TIMEFRAME               TIMEFRAME TOTAL
    OCTOBER 2007-SEPTEMBER 2008        $69,654.78
    OCTOBER 2008- DECEMBER 2008        $16,521.97
        TOTAL FOR OVERTIME             $86,176.75

                                                                         $293.37
                                                                          $47.98
                                                                          $12.00
           Officer names and ID numbers
                                                                          $47.98
                      redacted
                                                                          $47.98
                                                                          $48.90
                                                                          $12.00
                 Total                                                  $16,521.97
   Source: Provided by the city in response to the draft audit report

   It is unclear how this documentation demonstrates that the city met
   the matching requirement for the grant. To show that it met the
   matching requirement, the city needs to provide documentation that
   includes the officer names, dates, and work they performed on behalf
   of the grant. OJP agreed with our recommendation and said it would
   coordinate with the city to remedy the unsupported matching costs.
   This recommendation can be closed when the $66,667 has been
   remedied.

13. Closed. We recommended that OJP remedy $33,840 in unsupported
    matching costs for Grant Number 2008-WS-QX-0150. Along with its
    response to the draft report, the city provided supporting
    documentation that is adequate to close this recommendation. That
    documentation included officers’ overtime slips showing they worked in
    the target area for the grant project during the grant award period. In
    its response to the draft report, OJP agreed with our recommendation
    and said it would coordinate with the city to remedy the unsupported
    costs. This recommendation is closed because, along with its response
    to the draft report, the city provided supporting documentation showing
    it met the matching requirements for the grant.


                                          51

14. Resolved. We recommended that OJP ensure the city implements
    procedures to coordinate with the police department on the purchase,
    implementation, and management of property bought with grant funds.
    In its response to the draft report, the city stated that it had
    implemented improved systems, policies, and procedures to support
    full coordination with the police department on purchasing,
    implementation, and management of property obtained with grant
    funds. OJP agreed with our recommendation and said it would
    coordinate with the city to obtain a copy of those policies and
    procedures. This recommendation can be closed when we review
    procedures that ensure the city coordinates with the police department
    on matters related to the purchase, implementation, and management
    of property bought with grant funds.

15. Resolved. We recommended that OJP ensure the city submits
    accurate FFRs. In its response to the draft report, the city stated that
    it had implemented improved policies and procedures and added staff
    to ensure FFRs are accurate and submitted by the dates they are due.
    OJP agreed with our recommendation and said it would coordinate with
    the city to obtain a copy of the policies and procedures the city has
    implemented. This recommendation can be closed when we review
    procedures that ensure the city submits accurate FFRs.

16. Resolved. We recommended that OJP ensure the city submits
    complete, accurate, and timely progress reports. In its response to the
    draft report, the city stated that it had implemented improved policies
    and procedures and added staff to ensure that complete, accurate, and
    timely progress report are submitted for review and approval to be
    forwarded to OJP. OJP agreed with our recommendation and said it
    would coordinate with the city to obtain a copy of the policies and
    procedures the city has implemented. This recommendation can be
    closed when we review procedures that ensure the city submits
    complete, accurate, and timely progress reports.

17. Resolved. We recommended that OJP ensure the city implements a
    process for measuring progress at meeting grant goals and objectives.
    In its response to the draft report, the city stated that it had
    implemented policies and procedures and assigned staff to ensure that
    a process is in place for measuring progress toward the goals and
    objectives of the grant. OJP agreed with our recommendation and said
    it would coordinate with the city to obtain a copy of the policies and
    procedures the city has implemented. This recommendation can be
    closed when we review procedures that ensure the city has


                                    52

   implemented a process for measuring progress at meeting grant goals
   and objectives.

18. Resolved. We recommended that OJP ensure the city implements
    procedures for monitoring subrecipients to ensure they meet the fiscal
    and programmatic requirements of the grants. In its response to the
    draft report, the city stated that it had revised its monitoring
    procedures to increase program implementation oversight of
    subrecipients on all external funded grants. OJP agreed with our
    recommendation and said it would coordinate with the city to obtain a
    copy of its revised subrecipient monitoring procedures. This
    recommendation can be closed when we review procedures that ensure
    the city monitors subrecipients’ compliance with the fiscal and
    programmatic requirements of the grants.




                                   53

